I

No.

20-1219

IN THE
SUPREME COURT OF THE UNITED STATES

CARLINE CURRY —- PRO SE PETITIONER
V.S
Douglas Mackenzie

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
SUPREME COURT OF OHIO 2020-0727
(NAME OF COURT THAT LAST RULED ON MERITS OF CASE)
PETITION FOR REHEARING
Carline Curry (Pro Se)
606 Bowman Street
Mansfield. Ohio 44903
567-274-9130 or 567-3907

received
AUG 1 1 2021

'v

No.

20-1219

IN THE
SUPREME COURT OF THE UNITED STATES
!

CARLINE CURRY — PRO SE PETITIONER
V.S
Douglas Mackenzie

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
SUPREME COURT OF OHIO 2020-0727
(NAME OF COURT THAT LAST RULED ON MERITS OF CASE)
PETITION FOR REHEARING
Carline Curry (Pro Se)
606 Bowman Street
Mansfield. Ohio 44903
567-274-9130 or 567-3907

1

x.

QUESTION PRESENTED
THIS IS A QUESTION OF CONSTITUTION CHALLENGE FOR DEFAULT
JUDGEMENT
SHOULD PLAINTIFF CURRY BEEN AWARDED DEFAULT JUDGEMENT
UNDER OHIO RULE OF CIVIL PROCEDURE RULE 54 ( C) AND OHIO
RULE 4 OF CIVIL PROCEDURE RULE 4 PROCESS OF SUMMONS WHEN
DEFENDANT MACKENZIE FAILED TO DEFEND AND ANSWER THE
COMPLAINT AND DEFAULT JUDGEMENT WAS NOT JOURNALED FOR
THE AMOUNT PRAYED FOR IN THE INITIAL COMPLAINT.
THE DENIAL OF THE WRIT WAS RECEIVED 30 DAYS LATE. SHOULD
PLAINTIFF CURRY HAVE AN OPPORTUNITY TO A REHEARING. THE
LETTER WAS EITHER HELD UP AT THE POST OFFICE OR LOST

2

LIST OF PARTIES
[] All parties appear in the caption of the case on the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list
of all the parties to the proceeding in the court whose judgement is the subject of
this petition is as follows:
Douglas Mackenzie 19 Saucito Ave. Del Ray Oaks, CA 93940
Attorney General Dave Yost, 30 E. Broad Street; 14 th floor; Columbus, Ohio 43215
28 U.S.C. 451 may apply.
Solicitor General, Elizabeth Prelogar; Department of Justice Room 5616; 950
Pennsylvania Ave. N.W. Washington D.C 20530

TABLE OF CONTENTS

1 -1

QUESTION PRESENTED AND LIST OF PARTIES
Pages 2

TABLE OF CONTENTS

■Pages 3-7

TABLE OF AUTHORTIES CITED AND STATUES

CONSTITUTIONA AND STATURORY PROVISIONS INVOLVED AND
OPINIONS BELOW AND JURISDICTION
STATEMENT OF THE CASE
REASON FOR GRANTING THE WRIT
CONCLUSION

Pages 7

Page 8 - Failure to Defend
Page 9-11
Page 11 -13

3

1

TABLE OF AUTHORITIES CITED
CASES
Bank of America vs. William Chad Sullivan Trial Court CV20140743
Thomas V. State Farm Fire & Casualty Company No 2002 CA-00656-C)A
Brandon Apparel Group vs. Kirkland Ellis NO. 1-06-1432
Fitzgerald v. Harris (County Sheriff Department U.S. D. C. (S.D Tx) No. 4:14
CV-01330
Joyce vs. Pepsi Inc. May 25, 2012 813 N.W. 2d. 247 Wis.
Columbus v. Hodge 37 Ohio App. 3d8, 523 N.E. 2S 515 (1987)
Bivens v. Six Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S. 388
(1971)
CONSTITUTIONAL PROVISIONS & STATUTES
Ohio Rule of Civil Procedure

55 Default Judgement

Ohio Rule of Civil Procedure Rule 58 Entry of Judgment
Ohio Rule of Civil Procedure Rule 4 B Summons Process
Ohio Rule of Civil Procedure Rule 7
Ohio Rule of Civil Procedure Rule 12
Ohio Rule of Civil Procedure Rule 54 C JUDGEMENT COST
U. S.C. 1983 DEPRIVATION OF RIGHTS
Amendment 7 of the US Constitution (right to trial by jury)
42 U.S.C. 1985 Conspiracy to Interfere with Civil Rights
5 th Amendent of the Bill of Rights

Protection ofRights to Life, Liberty, and

Property
16 th Amendment of the Bill of Rights (due process)
Ohio Rule of Civil Procedure Rule 38

i

4

5 USC 706
28 USC 1361 action to compel an officer of the United States to perform his or her
duty (mandamus)
28 USC 451 & 28 U.S.C 2403 ( b ) may apply

Constitutional Challenge of Ohio Rules of Civil Procedures
This case was a constitutional challenge of the Default Judgement Rule:
Ohio Rule 55 Default Judgement, the Process of Summons Rule 4, Rule 7
Pleadings and Motions, Rule 12 Defenses and Objections, and Rule 54 ( C )
Demand for Judgement, and Rule 58 Entry of Judgement
RULE 4. Process: Summons (A) Summons: issuance. Upon the filing of
the complaint the clerk shall forthwith issue a summons for service upon
each defendant listed in the caption. Upon request of the plaintiff
separate or additional summons shall issue at any time against any
defendant. (B) Summons: form; copy of complaint. The summons shall be
signed by the clerk, contain the name and address of the court and the
names and addresses of the parties, be directed to the defendant, state
the name and address of the plaintiff’s attorney, if any, otherwise the
plaintiff’s address, and the times within which these rules or any
statutory provision require the defendant to appear and defend, and shall
notify the defendant that in case of failure to do so, judgment by default
will be rendered against the defendant for the relief demanded in the
complaint.

RULE 7. Pleadings and Motions (A) Pleadings. There shall be a complaint
and an answer;
RULE 12. Defenses and Objections—When and How Presented—by Pleading or
Motion—Motion for Judgment on the Pleadings (A) When answer presented.
(1) Generally. The defendant shall serve his answer within twenty-eight
days after service of the summons and complaint upon him; if service of
notice has been made by publication, he shall serve his answer within
twenty-eight days after the completion of service by publication.
RULE 4. Process: Summons (A) Summons: issuance,

• ••

and shall notify the defendant that in case of failure to do so, judgment
by default will be rendered against the defendant for the relief demanded
in the complaint.
TITLE VII. JUDGMENT RULE 54. Judgments; Costs
(A) Definition, Form.

Judgment as used in these rules means a written

entry ordering or declining to order a form of relief, signed by a judge,
and journalized on the docket of the court.
(C) Rule 54 ( C ) Demand for judgment.
A judgment by default shall not be different in kind from or exceed in
amount that prayed for in the demand for judgment. Except as to a party
against whom a judgment is entered by default, every final judgment shall

grant the relief to which the party in whose favor it is rendered is
entitled, even if the party has not demanded the relief in the pleadings.

(D) Costs. Except when express provision therefor is made either in a
statute or in these rules, costs shall be allowed to the prevailing party
unless the court otherwise directs.
(E) Attorney Fees. Whenever a provision of these rules authorizes a court
to award attorney fees, including attorney fees described in the provision
as caused or incurred, " the court may award the reasonable value of
the services performed by the attorney, whether or not the party
represented by that attorney actually paid or is obligated to pay the
attorney for such services performed.

RULE 55. Default
(A) Entry of judgment. When a party against whom a judgment for
affirmative relief is sought has failed to plead or otherwise defend as
provided by these rules—
(B) Plaintiffs, counter claimants, cross-claimants. The provisions of
this rule apply whether the party entitled to the judgment by default
is a plaintiff, a third-party plaintiff or a party who has pleaded a
cross-claim or counterclaim. In all cases a judgment by default is
subject to the limitations of Rule 54(C).

(C) Plaintiffs, counter claimants, cross-claimants. The provisions of
this rule apply whether the party entitled to the judgment by default
is a plaintiff, a third-party plaintiff or a party who has pleaded a
cross-claim or counterclaim. In all cases a judgment by default is
subject to the limitations of Rule 54(C).

c'*>
8

My case was originally filed with the Court of Common Pleas in
Columbus Ohio Case Number 18 cv 01560 The Judge entered a default
judgement in my favor for liability only.

Mr. Mackenzie failed to defend nor

did he have a representative appear. Therefore the Judgement was not
according to law.“ The Law States, “under Ohio Rule of Civil Procedure
“Rule 54 (C) Demand for judgment.”
A judgment by default shall not be different in kind from or exceed in amount
that prayed for in the demand for judgment. Except as to a party against whom
a judgment is entered by default, every final judgment shall grant the relief to
which the party in whose favor it is rendered is entitled, even if the party has not
demanded the relief in the pleadings.”
The judge did not include tort liability or compensatory damages for
financial losses. I should had been awarded Default Judgement according
to law under Ohio rule of Civil Procedure Rule 54 ( C ). The Judgement
entry was not according to Law and the Judge erred.
The 10 th Appeals District Court of Appeals dismissed my case
because they said I failed to file my brief on time. They failed to docket
my brief I upload it on the docket on February 10, 2020. I had a copy
of the receipt that it was received on February 10, 2020: that document
was in the Writ of Certiorari, I did not include the brief because it
was over 40 pages and I could not afford to include it. I resent the brief
on March 11, 2020, when the clerk told me they did not received it. The
brief had 25 pages of exhibits.

I don’ t know how they could have not

received it when I have a copy of the docket that said they received it.
What Happened to my Brief ?

7

OPINIONS BELOW
This case was not heard in federal courts or the United States district court
[X] For cases from state courts;
The opinion of the highest state court to review the merits appears at
Appendix____A

to the petition and is

[

] reported at

[

] has been designated for publication but is not yet reported; or

or,

[X] is unpublished.
The court denied to hear my case on December 2,2020

JURISDICTION
This case was not heard before federal court;
[X]

for cases from state courts

PC

]

The date on which the highest state court decided my case was December 2,

2020
A copy of that decision appears at Appendix___A
[

]

A timely petition for rehearing was denied by the Court of Appeals on the

following date;

and a copy of the order

denying rehearing appears at Appendix
[

] An extension of time to file the petition for a Writ of Certiorari was granted to

and including

(date) on

(date)

in Application No.
[X] The jurisdiction of this Court is invoked under 28 U.S.C.
The court denied to hear my case on December 2,2020
Statement of the Case

1257(a).

9

Argument / Reason for Granting the Writ
Mr. Mackenzie failed to Appear when I filed Litigation against him.
Ohio Rule of Civil Procedure Rule 4 Process of Summons says if a defendant
fails to plead default judgement will be entered against him.
Ohio Rule of Civil Procedures Rule 7 says there shall be a complaint
and an answer.

Mr. Mackenzie failed to answer.

Ohio Rule of Civil Procedure Rule 12 says the defendant must answer
the complaint within 28 days of receiving it. Mr. Mackenzie did not answer
the complaint.
Ohio Rule of Civil Procedure Rule 54
(A) Definition; Form. ''’Judgment'” as used in these rules means a
written entry ordering or declining to order a form of relief, signed by
a judge, and journalized on the docket of the court. The court did not
enter a Default Judgment according to law.
“Rule 54 (C) Demand for judgment.
A judgment by default shall not be different in kind from or exceed in amount
that I prayed for in the demand for judgment Except as to a party against whom
a judgment is entered by default, every final judgment shall grant the relief to
which the party in whose favor it is rendered is entitled, even if the party has not
demanded the relief in the pleadings.”
RULE 55. Default (A) Entry of judgment. When a party against whom
a judgment for affirmative relief is sought has failed to plead or

10

otherwise defend as provided by these rules, the party entitled
to a
judgment by default shall apply in writing or orally to the court therefor;
(C) Plaintiffs, counterclaimants, cross claimants. The provisions of
this rule apply whether the party entitled to the judgment by default is
a plaintiff, a third-party plaintiff or a party who has pleaded a
cross-claim or counterclaim. In all cases a judgment by default is subject
to the limitations of Rule 54(C).
(D) Costs. Except when express provision therefor is made either iin a
statute or in these rules, costs shall be allowed to the prevailing party
unless the court otherwise directs.

Mr. Mackenzie failed to plead upon requesting a demand for Judgment.
According to Rule 54 © the default should not be different in kind from or
exceed in the amount that I prayed for in the complaint I was not awarded the
amount prayed for in the complaint Therefore, the default judgement entiy was
not according to law and the Judge erred.

RULE 58. Entry of Judgment (A) Preparation; entry; effect; approval. (1)
Subject to the provisions of Rule 54(B), upon a general verdict of a jury,
upon a decision announced, or upon the determination of a periodic payment
plan, the court shall promptly cause the judgment to be prepared and, the
court having signed it. the clerk shall thereupon enter it upon the journal.
A judgment is effective only when entered by the clerk upon the journal.

11

/

Default Judgment failure to appear
Conclusions
The Judge errored by not granting entry judgment as requested in the
initial complaint according to Rule 4 and 54 ( c ) under Default Judgement.
Plaintiff Curry was not awarded Default Judgement according to law
and the Ohio Rules of Civil Procedure. Rule 4 Process of Summons and Rule
54 ( C) Demand for Judgement.
RULE 4. Process: Summons (A) Summons: issuance. Upon the filing of the
complaint the clerk shall forthwith issue a summons for service upon each
defendant listed in the caption. Upon request of the plaintiff separate
or additional summons shall issue at any time against any defendant. (B)
Summons: form; copy of complaint. The summons shall be signed by the clerk,
contain the name and address of the court and the names and addresses of
the parties, be directed to the defendant, state the name and address of
the plaintiff’s attorney, if any, otherwise the plaintiff’s address, and
the times within which these rules or any statutory provision require
the defendant to appear and defend, and shall notify the defendant that
in case of failure to do so, judgment by default will be rendered against
the defendant for the relief demanded in the complaint.
Only unreasoning minds could conclude that Default Judgement was

12

Not granted by the Law of Ohio Civil Rules of Civil Procedure Rule
4 and Rule 54 (C).

As a matter of law Plaintiff Curry should be entitled

to the amount of prayer requested in the initial complaint because Mr.
Mackenzie failed to defend. Which is Default Judgement Ohio Rules of Civil
Procedure Rule 55, 4, and 54 ( c).
The Judge awarded Plaintiff Curry 11, 761 dollars as a judgement
entry for liability claims only when 14, 784. 00 dollars was actually
spent: (not including money spent trying to contact Mr. Mackenzie) no
Compensatory, Punitive, or Tort damages were considered. The Judge
misunderstood the amount spent: when she held a hearing in which the
defendant never appeared.
Plaintiff Curry is petitioning the court to accept my Rehearing due
to the fact I received it almost 45 days late and reverse the lower court
Decision and award Plaintiff Curry 100,000,0000 Million dollars as
requested in the initial complaint (and according to law) for loss
opportunities and profits, loss of quality time spent with family, mental
anguish and stress, and for a financial hardship caused to me and my family
by Mr. Mackenzie’ s negligence.
The constitutionality of statues of the State are drawn into
question. Rule 4 (b) Process of Summons, Rule 54 (C), Rule 55 Default
Judgement and RULE 4. 6 D Process: Limits; Amendment; Service Refused;
Service Unclaimed

13

The Rehearing of Certiorari should be granted
Respectfully Submi ;ed
X
Cariine CurryPro
Attached are Appendixes A thru G

V'

Table of Contents
Appendix A
A1 - The Supreme Court denied new trial and to accept
Jurisdiction..
A2 - Tenth Appellate Dismissed my case for failing to
submit a timely brief. The brief was submitted
A3 - Letter to court asking them where my brief went it
was filed on 2-10-2020
A4- A9 Brief submitted on 2-10-2020 did not include 25
pages of exhibits
A10 - A11 Magistrates Decision from Franklin County
Court of Common Pleas not according to Ohio Civil Rule
4 B Process of Service
A12 - A14 Documents showing Mr. Mackenzie
Abandoned my Patent Application and was disciplined by
the Office of Discipline and Enrollment

f
•• f:

■■

A

CERTIFICATE OF COUNCEL
COUNSEL FOR DEFENDANTS
Mr. Mackenzie had no Concil on Record
16 Saucity Ave. Del Rey Oaks, California 93940
Councel for Plaintiff Pro Se.
Carline Curry, 606 Bowman Stret, Mansfield, Ohio 44903;
Phone Number 567-274-9130
The Petition and Certification of Council is presented in
good faith and not for delay.

Crab (1
Date % 7

Carline Curry Pro Se

30#1

Additional material
from this filing is
available in the
Clerk's Office.

